"Review of Humanas $21.7 Million Underpayment Claim for Beneficiaries Classified as Residing Outside the Plans Service Area,"(A-06-99-00060)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Humanas $21.7 Million Underpayment Claim for Beneficiaries
Classified as Residing Outside the Plans Service Area," (A-06-99-00060)
June 22, 2001
Complete
Text of Report is available in PDF format (2.62 MB). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Humana, Inc., a national managed care organization chain, submitted a claim to
the Centers for Medicare and Medicaid Services (CMS) asserting that CMS, in many
cases, had based payments for enrolled Medicare beneficiaries on incorrect State
and county address codes resulting in a net underpayment to Humana of $21.7 million
for the period October 1991 through December 1997.Our review, at CMS request,
showed the claim should be reduced to about $9.5 million. The $12.2 million overstatement
was due to; duplicate items in the claim and for beneficiaries not enrolled in
a Humana plan ($1.3 million), amounts not supported by Humanas records ($10.2
million), and items that were not, but should have been, included in Humanas
claim ($0.7 million). In our final report we recommended, in addition to a reduction
of $12.2 million in Humanas claim, that CMS establish stringent guidelines
for accepting additional documentation from Humana for claims that should be fully
developed and supportable before submission to CMS. The CMS concurred with our
recommendation.